                                        Report No. AUD-08-020                                                          September 2008

                                        Independent Evaluation of the FDIC’s
                                        Information Security Program-2008
Federal Deposit Insurance Corporation

                                        Audit Results
Why We Did The Audit
                                        In general, with respect to the information technology systems and common controls
The FDIC Office of Inspector
                                        reviewed, KPMG found that the related program and operational controls demonstrated
General (OIG) contracted with
                                        effectiveness while management and technical controls warranted management
KPMG, LLP (KPMG) to
conduct an independent                  attention. The FDIC continues to build upon its past success in addressing the
evaluation of the FDIC’s                information security provisions of FISMA and standards and guidelines of the National
information security program            Institute of Standards and Technology. Importantly, the FDIC had established policies
and practices pursuant to the           and procedures in substantially all of the security control areas KPMG evaluated. The
Federal Information Security            FDIC had also implemented a number of important security control improvements in
Management Act of 2002                  response to KPMG’s 2007 evaluation, such as enhancing its encryption capabilities and
(FISMA). FISMA requires                 strengthening its corporate privacy program. Additional control improvements were
federal agencies, including the         also underway at the close of the audit.
FDIC, to have an annual                 The above accomplishments were positive. However, KPMG identified a number of
independent evaluation                  information security control deficiencies warranting management attention. Of
performed of their information          particular note, KPMG identified access control deficiencies within the FDIC’s internal
security program and practices          network that presented a high risk of unauthorized disclosure of sensitive information
and to report the results of the        or compromise of IT resources. While the FDIC was taking prompt action to address
evaluation to the Office of             these access control deficiencies, increased management attention in this area is
Management and Budget.
                                        warranted. The table below presents KPMG’s security program assessment results.
                                        The report identifies eight steps that the Corporation can take to improve the
The objective of the evaluation
                                        effectiveness of its information security program controls in the areas of Risk
was to determine the
                                        Assessment; Planning; Certification, Accreditation, and Security Assessments; Media
effectiveness of the FDIC’s
                                        Protection; Awareness and Training; Identification and Authentication; Access
information security program
and practices, including the            Control; and Audit and Accountability. In many cases, the FDIC was already working
FDIC’s compliance with FISMA            to improve security controls in these areas during KPMG’s audit.
and related information security        Because this report addresses issues associated with information security, we do not
policies, procedures, standards         intend to make public release of the specific contents of the report.
and guidelines.
                                          KPMG’s Assessment of the FDIC’s Security Program Controls
Background                                   Control         Control Families Tested that           Control Families Tested that
                                              Class           Demonstrated Effectiveness           Warrant Management Attention
Key to achieving the FDIC’s                                  • Information Security
mission of maintaining stability           Program              Governance
and public confidence in the                                 • Enterprise Architecture
nation’s financial system is                                                                      •   Risk Assessment
safeguarding the sensitive                                                                        •   Planning
                                           Management
information it collects and                                                                       •   Certification, Accreditation,
                                                                                                      and Security Assessments
manages in its roles as federal
                                                             •   Maintenance                      •   Media Protection
deposit insurer of banks and
                                                             •   System and Information
savings associations and as                Operational           Integrity
receiver for failed institutions.                            •   Incident Response
Ensuring the integrity,                                      •   Awareness and Training
availability, and confidentiality                                                                 •   Identification and
of this information in an                  Technical
                                                                                                      Authentication
environment of increasingly                                                                        • Access Control
                                                                                                   • Audit and Accountability
sophisticated security threats            Source: KPMG’s 2008 audit of the FDIC’s information security program. KPMG did not
requires a strong, enterprise-wide        evaluate the following control families: System & Services Acquisition, Contingency Planning,
information security program.             Configuration Management, System and Communication Protection, Personnel Security, and
                                          Physical and Environmental Protection.
